COCKLE

Le g al Brie fs E-Mail Address:

2311 Douglas Street
contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-303
UNITED STATES OF AMERICA,
Petitioner,
Vv.
JOSE LUIS VAELLO-MADERO,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE VIRGIN ISLANDS BAR ASSOCIATION IN SUPPORT OF RESPONDENT in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 6647 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 7th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

omen | Aome tooo Ondhaotl. ble

‘My Comm. Exp. September 5, 2023
Affiant 41397

 

Notary Public
